BRIAN E. FROSH
Attorney General

ELIZABETH F. HARRIS
Chief Deputy Attorney General
CAROLYN QUATTROCKI
Deputy Attorney General

STATE OF MARYLAND

OFFICE OF THE ATTORNEY GENERAL
FACSIMILE NO.

WRITER’S DIRECT DIAL NO.

(410) 576-6475

(410) 576-6422

September 3, 2020
Scott S. Harris, Clerk
Supreme Court for the United States
1 First St., N.E.
Washington, DC 20543
RE:

Lloyd Harris v. Maryland, No. 20-101
Request for Extension

Dear Mr. Harris:
The State of Maryland, by and through undersigned counsel, pursuant to U.S. Sup.
Ct. R. 30.4, respectfully requests an extension of time within which to file the brief in
opposition to petition for writ of certiorari in the above-captioned case through and
including December 4, 2020.
Lloyd Harris’ petition for writ of certiorari was docketed in this Court on August 3,
2020, on August 13, 2020, the State waived their response, and on September 3, 2020, this
Court requested a response from the State to be filed by October 5, 2020.
An extension of this deadline is necessary because the case needs to be assigned to
a new attorney. All attorneys within the Criminal Appeals Division have full caseloads,
with 86 briefs due in Maryland’s intermediate appellate court on or before October 5, 2020.
For this reason, undersigned counsel respectfully requests a 60-day extension of time in
which to file the brief in

200 Saint Paul Place ❖ Baltimore, Maryland, 21202-2021
Main Office (410) 576-6300 ❖ Main Office Toll Free (888) 743-0023
Consumer Complaints and Inquiries (410) 528-8662 ❖ Health Advocacy Unit/Billing Complaints (410) 528-1840
Health Advocacy Unit Toll Free (877) 261-8807 ❖ Homebuilders Division Toll Free (877) 259-4525 ❖ Telephone for Deaf (410) 576-6372
www.marylandattorneygeneral.gov

September 3, 2020
Scott S. Harris, Clerk
Page 2
opposition to the petition for writ of certiorari in Lloyd Harris v. Maryland, No. 20-101,
through and including Friday, December 4, 2020.

Respectfully submitted,
/s/
Carrie J. Williams
Assistant Attorney General
Principal Counsel for Criminal Policy
Criminal Appeals Division
CC:

Amir H. Ali, Megha Ram
Roderick & Solange
MacArthur Justice Center
777 6th Street, NW, 11th Fl.
Washington, DC 20001

